                    Evaluation of RRB E-Government Initiative: 

                 RUIA Contribution Internet Reporting and Payment 

                       Report No. 03-03, December 27, 2002 



                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) E-government initiative for the railroad employer
quarterly report and payment of contributions under the Railroad Unemployment and
Insurance Act (RUIA).

BACKGROUND

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2001, the RRB paid approximately $8.4 billion in railroad retirement and survivor
benefits to about 700,000 beneficiaries. The RRB also paid unemployment and
sickness insurance benefits of $95 million to some 40,000 claimants. As part of its
responsibilities under the RUIA, the RRB collects employer contributions which are
used to fund the RUIA benefit payments. Employers make contributions and report
them to the RRB on a quarterly basis.

In the past, employers have reported contributions by submitting a paper copy of Form
DC-1 to the RRB and have paid their RUIA contributions either by paper check or an
electronic means. The electronic payment option was implemented in 1993 when the
U.S. Department of the Treasury (Treasury) entered into a Memorandum of
Understanding (MOU) with a financial intermediary, U.S. Bank (formerly Firstar Bank),
to establish and operate an electronic system for collecting railroad retirement taxes and
contributions. This system is termed the “RRBLink” system, and employers can use
one of three different options to make electronic payments in the system. These
options include personal computer/modem technology, telephone, and telephone voice
technology. For the last quarter of calendar year 2001, approximately 73% of railroads
used the RRBLink system to pay RUIA contributions.

Under the Government Paperwork Elimination Act (GPEA), Title XVII of Public Law 105-
277, Federal agencies must provide for the optional use and acceptance of electronic
documents and signatures, and electronic record keeping by October 21, 2003. In
addition, the Administration’s Management Agenda includes a goal for Federal agencies
to expand the use of the Internet to provide government services. E-government is the
term used to describe Federal agency initiatives to use information technologies to
improve relationships with citizens, businesses and other sectors of government. For
the RRB, E-government initiatives can serve a variety of needs, including better delivery
of services to beneficiaries, improved interaction with railroad employers, customer
empowerment through access to information, and more efficient agency management.
RRB officials responsible for employer reporting have determined that employers want
to be able to exchange information with the RRB electronically. Therefore, RRB
management has developed an Employer Reporting Initiative to automate current
paper-based reporting, improve the efficiency and effectiveness of exchanges between
the agency and employers, and streamline agency processes.

As one phase of the Employer Reporting Initiative, the RRB implemented the DC-1
Internet reporting and payment project in March 2002. The contractor, U.S. Bank, in
conjunction with the RRB’s Bureau of Fiscal Operations (BFO), modified the RRBLink
system to add a new option for electronic payment over the Internet and allow for
Internet filing of the DC-1 reports for those railroads that adopted the Internet payment
option. The RRB and U.S. Bank signed a MOU in July 2002 regarding retention of the
DC-1 data and RRB requests for information.

The RRB’s 2000-2005 strategic plan has a goal to provide excellent customer service
and includes an objective to ensure an efficient and effective reporting system for
railroad employers. The plan also has a goal for using and leveraging technology to
improve the agency’s operational efficiency and effectiveness. This review speaks
directly to these goals and objectives.


OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this review was to assess the implementation of the DC-1 project. The
scope included the development of the system beginning August 2001, the DC-1 forms
filed for the quarter ending March 31, 2002, and other operations and activities relating
to the DC-1 project through October 2002.

To accomplish the audit objective, we performed the audit steps detailed below:

•   reviewed pertinent laws and regulations;

•	 reviewed RRB policies, procedures and other documents, including the Information
   Technology Steering Committee minutes, the Information Technology Capital Plan,
   and project plans for the DC-1 project and Employer Reporting Initiative;

•	 reviewed systems documentation relating to RRB and U.S. Bank development
   testing;

•	 reviewed Internet screens from RRBLink and tested applicable controls and
   requirements;

•	 documented and assessed security procedures over the Internet DC-1 filing
   process, including data security and access to RRB systems;

•   evaluated the agreements with the RRB, Treasury and U.S. Bank/Firstar Bank;


                                            1

•	 reviewed a judgmental sample of 20 Internet DC-1’s submitted for data transmission
   and system-calculation errors;

•	 obtained comments from the 20 railroads in our judgmental sample on the usability
   of the DC-1 Internet filing process;

•	 obtained and reviewed additional input information needed by OIG’s Office of
   Investigations from U.S. Bank for a judgmental sample of three railroads;

•   interviewed RRB management and staff; and

•   interviewed U.S. Bank management and staff.

The OIG conducted the audit in accordance with generally accepted government
auditing standards. Auditors performed the fieldwork at the RRB headquarters office in
Chicago, Illinois from October 2001 through October 2002.


                                RESULTS OF REVIEW 


Our review of the recently implemented DC-1 project identified significant weaknesses
in overall security of the Internet system, problems with the 2002 MOU, and concerns
about the level of railroad participation in the Internet system. Our specific findings
include:

    1. 	 The certification of the Internet DC-1 reports and payments cannot be adequately
         validated.

    2. Security over usage of passwords should be significantly strengthened.

    3. Additional password system controls should be fully implemented.

    4. The 2002 MOU between the RRB and U.S. Bank lacks key details.

    5. 	 The monitoring provisions in the 2002 MOU for privacy and security of DC-1 data
         are inadequate.

    6. 	 The RRB needs to encourage increased participation in the Internet system to
         ensure it is not underused.

Detailed findings and recommendations are discussed below.

Certification of Internet DC-1 Cannot Be Adequately Validated

The RRB cannot adequately validate the certification of any Form DC-1, Employer’s
Quarterly Report of Contributions under the RUIA, filed using the Internet. Employers


                                            2

filed over 200 DC-1 forms using the Internet system for the first and second quarters of
calendar year 2002.

Two requirements for successful information assurance are authentication (users are
who they claim to be) and non-repudiation (the user cannot deny his/her identity and
responsibility for the action). The GPEA defines “electronic signature” as a method of
signing an electronic message that (1) identifies and authenticates a particular person
as the source of the electronic message and (2) indicates such person’s approval of the
information contained in the electronic message. The Office of Management and
Budget’s (OMB) guidance to implementation of the GPEA states that agencies should
develop well-documented mechanisms and procedures to link transactions to
individuals in a legally binding way.

The OMB’s guidance recommends that, where necessary, agencies use a mutually
understood, signed agreement between the person submitting the electronically signed
information and the receiving Federal agency. These agreements ensure that all
conditions of submission and receipt of data electronically are known and understood by
the submitting parties. This procedure is particularly desirable when terms and
conditions are not specified in agency regulations. OMB’s guidance also states that it is
important to establish that the user of the electronic signature is fully aware of
obligations to which he or she is agreeing at the time of signature.

Authorized employer personnel certify the accuracy and validity of the electronic form
DC-1 through the use of their user identification (ID), password and personal
identification number (PIN). These items are assigned by U.S. Bank upon completion of
a valid enrollment form. This electronic signature replaces the business filer’s written
signature. In order to fully validate the Internet DC-1, the RRB must be able to link the
user ID, password and PIN to a specific individual and verify that the individual fully
understood the certification process and intended to certify the DC-1. However, the
RRB cannot effectively authenticate the DC-1 form because the agency and U.S. Bank
have insufficient controls over the Internet enrollment process.

Prior users of other deposit methods for this system did not have to sign any type of
statement acknowledging their approval to enroll in the Internet option or their
understanding and agreement that the use of their user ID, password and PIN would
constitute certification of a transaction. U.S. Bank mailed a unique user ID and
password to all persons of record who were previously enrolled to use one of the other
deposit methods. These railroad individuals did not have to complete new enrollment
forms for system access. Instead, access to the Internet system was granted based on
their prior enrollment form for one of the other deposit methods. These enrollment
forms did not provide any information about the new and important terms and conditions
of enrollment in this system.

New users of the system are sent an enrollment form that has not been updated to
include full details on the new Internet option. Thus, new users do not receive sufficient
information about the terms and conditions of the Internet system and do not provide
written acknowledgment that they understand and agree that their user ID, password
and PIN represent an electronic signature.
                                            3

In addition, all Internet users are not sufficiently informed and reminded of the
importance of the user ID, password and PIN. The RRBLink Users Manual that is
mailed to users and the RRBLink website screens do not have any information on the
importance of certification.

Because of inadequacies in the enrollment process and the lack of sufficient information
regarding the certification of the Internet DC-1, the certification of every Form DC-1 filed
using the Internet, including the corresponding RUIA payment, can be repudiated. As a
result, the RRB might not be able to enforce civil or criminal penalties for false or
fraudulent statements, as provided under federal law.

Recommendation

BFO should direct U.S. Bank to:

•	 revise Internet enrollment forms to clearly explain that use of the user ID, password
   and PIN constitutes certification of a Form DC-1. In addition, the form should
   include a section requiring the applicant to acknowledge their understanding and
   approval of this fact by written signature (Recommendation #1).

•	 obtain new enrollment forms for all individuals currently enrolled in the system
   (Recommendation #2).

•	 revise the RRBLink Users Manual and include information on the RRBLink website
   screens to clearly explain that use of the user ID, password and PIN constitutes
   certification of a Form DC-1 (Recommendation #3).

Management’s Response

BFO concurs with all three recommendations and will confer with U.S. Bank by January
31, 2003 to determine when the recommendations can be implemented and the
associated costs. BFO will determine final completion dates for corrective action after
obtaining this information from U.S. Bank. A copy of the complete response is included
in Attachments I and II.


Password Security Needs Strengthening

Authorized Internet users are sometimes sharing their access to this secure system with
individuals who have not been officially granted access to the electronic payment
system. These users have either given their user ID, password, and PIN to a coworker
not previously authorized by U.S. Bank or have logged on to the system for another
unauthorized individual to use. As a result, unauthorized users have access to this
system.




                                             4

Strong password security ensures proper access to systems and data. The General
Accounting Office’s Federal Information Systems Control Audit Manual and the National
Institute of Standards and Technology’s Federal Information Processing Standards,
Publication 112, advise that passwords should be individually owned, rather than owned
in common or in groups, in order to provide individual accountability within a computer
system. The password should be controlled by the assigned user and not subject to
disclosure. The OMB’s implementation guidelines for GPEA state that agencies should
establish adequate guidelines for password creation and protection.

In order to access the Internet, a railroad individual must log on with a valid user ID,
password and PIN. In order to obtain authorized access, the individual must complete
an enrollment form in writing and mail the form to the U.S. Bank system administrator.
Upon validation of this form, the system administrator will mail a confirmation of
enrollment containing information needed for authorized access.

Individuals are responsible for the security of their access information. They are not to
share their user ID, password and PIN. Each individual that needs access to the
system should complete an enrollment form and obtain his/her own access. There is
currently no restriction on the number of authorized users that a railroad employer can
have.

The RRB has not instructed U.S. Bank to educate users about the importance of
maintaining security over access. The Users Manual does not emphasize the
importance of password security and the prevention of access to the system by
unauthorized users. RRBLink documentation and instructions do not inform users that
they should not share their access with coworkers. There is no global message on the
RRBLink website nor do any of the website screens include information regarding
password security. In addition, the confirmation of enrollment form for the system does
not provide information on password security.

Because some authorized users do not practice prudent security over their access, it is
more difficult for the RRB and U.S. Bank to adequately maintain secure control over the
Internet system. Poor password security and practices unduly compromise the Internet
system and employer data because they allow unauthorized users to conduct
unapproved and invalid transactions and obtain access to confidential data, including
tax information. These poor practices also undermine controls mentioned in our
previous finding concerning the validation of certification of Internet DC-1 reports and
payments.

Recommendation

BFO should direct U.S. Bank to:

•	 revise the RRBLink Users Manual to include a section on password security and
   provide a copy of this revision to the enrolled users. At a minimum, this section
   should include statements: (a) prohibiting the sharing of passwords and logging on



                                            5

   of unauthorized users and (b) explaining the risk to the system and its data of
   improper password usage (Recommendation #4).

•	 include information regarding password security on the RRBLink website
   (Recommendation #5).

•	 include a statement regarding password security on the confirmation of enrollment
   forms provided to individuals granted access (Recommendation #6).

Management’s Response

BFO agrees with all three recommendations and will confer with U.S. Bank by January
31, 2003 to determine when the recommendations can be implemented and the
associated costs. BFO will determine final completion dates for corrective action after
obtaining this information from U.S. Bank. A copy of the complete response is included
in Attachments I and II.



Important Password System Controls Were Not Implemented

The contractor did not fully implement two important password controls: restrictions on
password use and limits on log-on attempts. The system did not restrict the use of old
passwords even though users had to periodically change their password. As an
example, a user could change his password and then immediately change back to the
previous password. In addition, invalid log-on attempts were not limited, recorded or
reviewed.

Strong password controls ensure proper and valid access to systems and data. The
General Accounting Office’s Federal Information Systems Control Audit Manual and the
National Institute of Standards and Technology’s Federal Information Processing
Standards, Publication 112 contain general guidelines for securing information
technology systems for the Federal government. The guidelines indicate that
passwords should be changed periodically and should have restrictions on re-use, such
as prohibiting re-use for a set time period. These standards also indicate that attempts
to log on with invalid passwords should be limited, and invalid attempts should be
recorded by the system and regularly reviewed. The RRBLink Users Manual also
states that passwords cannot be reused for 90 days.

U.S. Bank had agreed to include the password reuse control when developing the
system. However, an oversight in development resulted in the control not being
programmed into the system and RRB testing did not identify this control deficiency.
The RRB did not request inclusion of an access control for log-on attempts in the
system development and therefore, the contractor did not build this security control into
the system.




                                            6

The lack of a password reuse control and the fact that invalid logon attempts are not
limited, recorded, or reviewed unduly compromise the Internet system and employer
data. Unauthorized users and computer hackers could more easily gain access to the
system, conduct unapproved and invalid transactions, and obtain access to confidential
data, including tax information.

Weaknesses in these password system controls also undermine controls mentioned in
our previous findings to ensure adequate validation of certification. Once the OIG
informed the U.S. Bank system administrator that the password reuse standard detailed
in the Users Manual was not in effect, U.S. Bank implemented the control. The OIG re-
tested this control and determined that it is now working as intended. Therefore, the
OIG is not making a recommendation concerning this finding.

Recommendation

BFO should direct U.S. Bank to:

•	 Implement a control to limit the number of invalid logon attempts (Recommendation
   #7), and

•	 Implement a policy to record invalid attempts in an exception report and review the
   report for potential follow-up action (Recommendation #8).

Management’s Response

BFO concurs with both recommendations and will confer with U.S. Bank by January 31,
2003 as to when the recommendations can be implemented and the associated costs.
BFO will determine final completion dates for corrective action after obtaining this
information from U.S. Bank. A copy of the complete response is included in
Attachments I and II.


The 2002 MOU Regarding Internet DC-1 Form Lacks Key Details

The RRB and U.S. Bank recently signed a new MOU regarding retention of the DC-1
data and RRB requests for information. This agreement is not adequate because it
does not state:

•   the amount of time the bank has to reply to a request for information;

•   how the bank will determine costs for handling information requests;

•   who has the right to audit the amounts charged by the bank;

•   the mechanism for resolving disputes over provisions;

•   the penalties for non-compliance with the agreement;

                                            7

•   exactly what documentation the bank needs to release information; and

•	 what information must be provided by the bank (it only states what information may
   be provided by the bank).

A MOU is an agreement between two parties that should include clearly defined
performance requirements and details to satisfy both parties’ needs. The MOU
language should be sufficiently clear and detailed to avoid disputes over provisions of
the agreement or to easily remedy any disputes.

The 2002 MOU does not contain these provisions because program personnel who
prepared the document believed that privacy, security, controls, and other details were
covered in the 1993 MOU that governed RRBLink. Therefore, they believed that these
provisions did not need to be restated in the current agreement. However, the
provisions of the 1993 agreement between Treasury and U.S. Bank do not
automatically apply to the 2002 MOU between the RRB and the bank because there are
different parties to each agreement. In addition, the Form DC-1 was not included in the
1993 agreement.

Because the 2002 MOU lacks key details, U.S. Bank may not meet the expectations of
the RRB concerning performance of key issues such as timeliness in the release of
information needed for an investigation, quality of information provided, and charges to
the agency for information requested under the agreement. The agency also could
incur unnecessary costs and delays because no agreement has been made concerning
dispute resolution and penalties.

Recommendation

The BFO should consult with the RRB’s Office of General Counsel to determine
additional details, including those stated above, that are needed for the MOU and
should revise the MOU accordingly (Recommendation #9).

Management’s Response

BFO agrees with the recommendation and will consult with the RRB’s Office of General
Counsel to determine necessary MOU changes. BFO will revise the MOU by
December 31, 2003. A copy of the complete response is included in Attachments I and
II.


2002 MOU Monitoring Provisions for Privacy/Security of DC-1 Data Are Inadequate

The 2002 MOU does not specifically state how the privacy and security of DC-1 data
will be monitored. This agreement states that the privacy and security of information as
covered in the 1993 MOU applies equally to Form DC-1, but is incomplete because it
does not state how the RRB will monitor this performance.

                                            8

OMB Circular A-123 requires Federal managers to establish management controls that
include policies and procedures to reasonably ensure that programs achieve their
intended results, and that laws and regulations are followed. The agency must have
adequate oversight of the security and privacy of the DC-1 data to ensure that electronic
filing is meeting these criteria. In addition, the RRB’s records retention schedule states
that employer contribution files, which include the DC-1 data, should be maintained for
six years and three months. Federal regulations require adherence to the agency’s
records retention schedule.

The 2002 agreement does not contain monitoring provisions because RRB
management assumed that Treasury would monitor compliance since the Form DC-1
was added to the system already covered under the 1993 MOU. However, this
assumption is invalid because Treasury has not formally agreed to monitor DC-1 data,
and Treasury has no legal responsibility to do so. The 1993 agreement covered the
collection of Federal tax deposits from railroad employers. The collection of these taxes
is the responsibility of Treasury under the Railroad Retirement Tax Act. Collection of
DC-1 contribution data is the responsibility of the RRB under the RUIA, as is the
oversight responsibility for the privacy, security, and accuracy of this data.

Auditing the system at U.S. Bank in which the DC-1 data resides is part of the
monitoring process. RRB management has advised that Treasury is currently
performing a risk assessment of the bank’s system. Since this data is located on the
same system as the tax data, the RRB believes that it can rely on Treasury’s review if
Treasury includes the DC-1 in the scope of its review. However, this reliance would not
eliminate the RRB’s overall responsibility for the DC-1 data.

Because of the deficiencies in the 2002 MOU, DC-1 data is at risk of improper
disclosure and unlawful destruction without adequate monitoring. If such actions
occurred, the RRB would be in violation of Federal regulations governing records
retention.

Recommendation

BFO should revise the MOU to state how the agency will monitor compliance with the
privacy and security provisions of the agreement (Recommendation #10).

Management’s Response

BFO agrees with the recommendation and will confer with U.S. Bank and the
Department of Treasury to determine necessary revisions to the MOU. BFO will
complete the MOU revisions by December 31, 2003. A copy of the complete response
is included in Attachments I and II.


Increased Participation in the Internet System Is Needed



                                            9

The RRB needs to encourage increased Internet participation to ensure that the system
is not underused. The initial implementation of the system was encouraging, with
approximately 20% of all railroads filing through the Internet for the first quarter of 2002.
However, the growth during the second quarter of 2002 was minimal, as only ten
additional railroads began filing in the second quarter. In addition, the railroads
reporting on the Internet account for a small percentage of total RUIA contributions.


                                                                       Contribution Paid/
  Reporting Period    Railroads Reporting    % of Railroads Filing   Percent of All Railroads


  1st Qtr, 2002                100                   20%                 $1.2 million/4%


  2nd Qtr, 2002                110                   22%                 $1.6 million/5%




None of the seven major railroads are using the Internet for DC-1 reporting and
payments. These railroads contributed approximately 70% of total RUIA compensation
in calendar year 2001. By comparison, the railroads using the Internet system provided
5% or less of the total RUIA compensation during the same period.

Approximately 285 railroads paid RUIA contributions using an electronic process other
than the Internet, while 121 railroads paid by check for the first quarter of 2002. These
electronic payment methods include personal computer/modem and touch-tone
telephone technology. Railroads that pay contributions by one of these electronic
methods or that pay by check must still file a paper Form DC-1 with the RRB.

The Administration’s Management Agenda includes a government-wide goal for
expanded use of the Internet to provide government services. Effective implementation
of this goal is important in making government more responsive to and cost-effective in
servicing customers. E-government is critical to meeting current customer’s
expectations for interaction with the RRB. It will enable the agency to align efforts as
needed to significantly improve service and reduce operating costs.

The RRB’s 2000-2005 Strategic Plan states that the agency should ensure an efficient
and effective reporting system for railroad employers and should deliver service at the
point-of-contact (“one and done”). The plan also states that information technology
resources will be developed to improve the agency’s performance while operating with
fewer resources and technology initiatives should fundamentally improve the efficiency
and effectiveness of the agency’s mission.

Railroad participation in the Internet system has not increased greatly because the RRB
has not yet effectively marketed the new system throughout the railroad community.
The RRB has not prepared a comprehensive plan or initiated a targeted effort to
publicize the benefits of the Internet DC-1 and encourage railroads to use the system.
Such a plan could include:

                                             10

   •   aggressively promoting the new system at periodic meetings with railroads,

   •   conducting training sessions with railroad officials,

   •	 publicizing the system at special meetings of the railroad trade associations,
      such as the Association of American Railroads and the American Short Line and
      Regional Railroad Association, and

   •	 enhancing the RRB’s website to more prominently feature and advertise the
      system.

Currently, the RRB manually processes over 400 paper Form DC-1’s and more than
100 paper checks for contribution payments each quarter. Increasing the use of
Internet filing and payment will result in significant processing savings over paper
reporting and check payments. The use of the Internet allows railroads to file the DC-1
report and schedule the payment as a one point-of-contact process with the RRB
online. Paper reporting requires a separate additional process to make the payment. In
addition, the agency and the more than 100 railroads now paying by check will receive
the additional savings of using an electronic payment process.

Recommendation

BFO should implement a plan to encourage increased railroad participation in the
Internet system (Recommendation #11).

Management’s Response

BFO agrees with the recommendation and advised that, after revising the RRBLink
Internet enrollment form per recommendation #1, they will work with U.S. Bank and the
RRB’s Assessment and Training unit to implement a plan to encourage expanded
usage of the Internet system. BFO will determine final completion dates for corrective
action after establishing a completion date for recommendation #1. BFO also advised
that for the third quarter of 2002, over 150 railroads filed through the Internet. A copy of
the complete response is included in Attachments I and II.




                                             11

